<html>
<title> - U.S. COUNTERTERRORISM EFFORTS IN SYRIA: A WINNING STRATEGY?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                  U.S. COUNTERTERRORISM EFFORTS IN SYRIA: 
                          A WINNING STRATEGY?

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 29, 2015

                               __________

                           Serial No. 114-101

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                                 
                                 
                     U.S. GOVERNMENT PUBLISHING OFFICE
96-816 PDF                WASHINGTON : 2015                     
 _______________________________________________________________________________________                      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6502150a25061016110d0009154b060a084b">[email&#160;protected]</a>  
                     
                      
                      
                      
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

General Jack Keane, USA, Retired, chairman of the board, 
  Institute for the Study of War.................................     5
Mr. Thomas Joscelyn, senior fellow, Foundation for Defense of 
  Democracies....................................................    14
The Honorable Daniel Benjamin, Norman E. McCulloch Jr. director, 
  John Sloan Dickey Center for International Understanding, 
  Dartmouth College (former Coordinator for Counterterrorism, 
  U.S. Department of State)......................................    27

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

General Jack Keane, USA, Retired: Prepared statement.............     8
Mr. Thomas Joscelyn: Prepared statement..........................    17
The Honorable Daniel Benjamin: Prepared statement................    29

                                APPENDIX

Hearing notice...................................................    50
Hearing minutes..................................................    51

 
      U.S. COUNTERTERRORISM EFFORTS IN SYRIA: A WINNING STRATEGY?

                              ----------                              


                      TUESDAY, SEPTEMBER 29, 2015

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order. Without 
objection, all members may have 5 days to submit statements, 
questions, and extraneous materials for the record subject to 
the length limitation in the rules.
    I will make my opening statement, then yield to the ranking 
member, Mr. Keating, for his statement.
    On September 10th, 2014, President Obama announced that the 
United States would ``degrade and ultimately destroy ISIS.'' 
That was a year ago. Obviously, ISIS didn't get the memo. The 
terrorist group keeps on moving across the Middle East killing 
those who stand in its way by raping, pillaging, and murdering 
those who disagree with ISIS.
    ISIS controls half of Syria and large parts of Iraq. 
Civilized society is losing to these barbarians. Despite the 
U.S. spending billions in a counterterrorism strategy, the 
terrorist groups numbers have not decreased; in fact, ISIS has 
grown in size with affiliates now all over the world, including 
Indonesia, Yemen, Egypt, and Libya.
    The U.S. $3.7 billion air strike campaign has been plagued 
with little measurable successful results. From the very 
beginning, military officials warned that the air strikes 
relied on virtually no human intelligence on the ground 
surveillance. They were right. Without good intelligence, the 
number of air strikes the U.S. has carried out have been few, 
and the results are uncertain. Also, ISIS fighters killed by 
our air strikes seem to be replaced immediately with other 
jihadists.
    Our intelligence estimates that ISIS' numbers are the same 
as they were when the air strikes started. In addition, the 
administration's $500 million Train and Equip Program has 
proved to be a failure by anyone's measure. In July, officials 
reported they had identified 7,000 planned participants, but 
only trained 60 due to intense vetting procedures, and other 
excuses.
    Later that month, 54 fighters crossed into Syria to fight 
ISIS forces that numbered in the tens of thousands. Of those 54 
mercenaries, virtually all were killed, captured, or scattered 
when attacked. We're now down to four or five trained 
mercenaries according to General Lloyd Austin of CENTCOM.
    Despite this failed policy, just last week we sent a second 
group of about 70 U.S.-trained fighters into Syria. Just 1 day 
later, reports suggested that one of the officers defected and 
surrendered his arms to an al-Qaeda Syrian affiliate. Several 
truckloads of weapons were allegedly traded to the terrorist 
group al-Nusra for safe passage through Syria. It's time to 
abandoned this failed Train and Equip Program.
    The reality is just as bleak on the online battlefield. 
ISIS has 30 to 40,000 social media accounts. It uses the 
internet to spread its propaganda, raise money, and find 
recruits as far away as Washington State. In 2011, the 
administration promised a strategy to combat terrorists' use of 
social media. Four years later, the administration still has 
not shown us that strategy; no plan, no degrading of ISIS, no 
defeating of ISIS.
    The intel given to the administration has also reportedly 
been doctored to cover up how bad the war against ISIS is 
really going. Meanwhile, thousands of people are fleeing the 
Middle East, flooding Europe, and demanding entry into other 
Western countries because of the ISIS carnage and chaos in 
Syria and Iraq. There is more. ISIS continues to recruit want-
to-be jihadists online for free via U.S.-owned social media 
companies.
    The administration continually is saying that everything is 
okay, is an embarrassing and wrong assessment of the violence 
and threat of ISIS. Today, we are here to get frank assessment 
of the administration's counterterrorism strategy in Syria. In 
the face of our failure to destroy ISIS, we should be focusing 
on what we can do better, how we can improve our strategy in 
the future.
    ISIS' advances in Syria translate into more direct threats 
to our national security and our interests both home and 
abroad. ISIS wants to destroy the United States and everything 
the U.S. stands for. ISIS fears no one; certainly not the U.S., 
so it continues to murder in the name of its radical jihadist 
beliefs. It has already killed numerous Americans. We need a 
strategy that protects American people from this radical 
Islamic threat. Now we hear on the horizon that the Russians 
may intervene and help defeat ISIS. Who knows?
    The U.S. needs to define the enemy and defeat it. And 
that's the way it is, and I'll yield to the ranking member, Mr. 
Keating.
    Mr. Keating. Thank you, Mr. Chairman, for conducting this 
hearing, and I thank also our witnesses for being here today.
    The conflict in Syria is an open wound in the volatile 
Middle East. President Assad has brutalized, bombed, used 
chemical weapons on his own people creating the conditions for 
ISIL and al-Qaeda to thrive in Syria, and driving millions of 
Syrians to flee their country. The resulting refugee crisis has 
severely strained the resources of Syria's neighbors and 
exposing divides in Europe, which in some parts is already 
suffering from an intolerant brand of nationalism.
    The conflict in Syria is also drawing in foreign fighters 
who contribute to the instability and represent possible 
terrorist threats when they return to their countries of 
origin, including the United States. To put it mildly, the 
order of battle in Syria is complex.
    The United States has called for Assad to leave power and 
opposes ISIL and al-Qaeda affiliate, al-Nusra. The United 
States supports so-called moderate Syrian opposition forces and 
the Syrian Kurdish group known as YPG. Meanwhile, our NATO 
ally, Turkey, late to the fight against ISIL opposes Assad and 
Kurdish militants, and the PKK, as well, which also has close 
ties to our Syrian Kurdish allies, the YPG. Our sometimes 
allies against ISIL, Iraq, Iran, and Russian support the Assad 
regime, and our partners in Saudi Arabia and the Gulf States 
oppose Assad and ISIL, while some individuals within these 
states provide funding to Sunni extremist groups in Syria.
    Given this tangled regional situation which has been 
further complicated by Russia's recent movement of military 
equipment and personnel into Syria, the United States has, in 
my view, wisely refrained from introducing sizeable ground 
force into Syria to combat ISIL. Yet, in concert with our 
partners we must do more to counter and defeat ISIL which 
controls significant territory in Syria and Iraq, extending its 
influence beyond the Middle East into Africa and Asia.
    ISIL's atrocities are horrific, and we must work to put a 
stop to its campaign of murder, slavery, and the destruction of 
cultural heritage. By virtue of its ideology, ISIL needs to 
control territory in order to survive, and to ultimately defeat 
ISIL we need to assist our allies in the region in retaking 
that territory.
    The key questions in my mind are, how will the United 
States and its partners sufficiently array its forces against 
ISIL to defeat it? And as we work to do this, how will we deal 
with the Assad regime whose illegitimacy and brutality was the 
root cause of the Syrian civil war?
    We know that to date the plan to train and equip moderate 
Syrian fighters has not met its objectives. I hope that today's 
hearing will provide some constructive proposals on how going 
forward the United States and its allies can enhance 
counterterrorism efforts in Syria.
    I yield back, Mr. Chair.
    Mr. Poe. Thank the gentleman from Massachusetts.
    The Chair recognizes the gentleman from South Carolina, Mr. 
Wilson, for 1 minute.
    Mr. Wilson. Thank you, Mr. Chairman.
    Sadly, the President's strategy in Syria is failing, 
resulting in refugees fleeing violence and then drowning at 
sea. According to a recent article in the New York Times, the 
administration reports,

        ``That coalition strikes killed about 10,000 Islamic 
        State fighters. The group continues to replenish its 
        ranks drawing an average of about 1,000 new fighters 
        per month.''

The President was wrong to belittle ISIS to JV, and he was 
wrong and made a mockery of the term ``red line.'' The failure 
of the Train and Equip mission of Syrian Opposition Forces has 
given enemy reinforcements space to insert itself and prop up 
the Assad dictatorship.
    The U.S. needs to change course and create a new strategy 
to defeat safe havens threatening American families at home. I 
believe it's important that the U.S. and international 
community recognize that the situation in Iraq and Syria is, in 
fact, a global problem requiring broad international 
cooperation to promote stability in the region for families to 
prosper in their home nation.
    Mr. Poe. The gentleman yields back his time.
    The Chair recognizes the gentleman from California, Mr. 
Sherman, for 1-minute opening statement.
    Mr. Sherman. No one in the administration is saying that 
everything is okay. The Shiite Alliance is more dangerous than 
ISIS and more evil. They've killed far more Americans starting 
in the 1980s when Hezbollah attacked our Marines. And so if we 
confront ISIS, we have to do so in a way that does not empower 
Assad, Hezbollah, and Iran.
    You can attack U.S. policy, but we don't as a nation want 
to send troops into the ground, and we are living with the 
results of an absolutely failed policy of the last 
administration in Iraq which installed Maliki, slightly 
improved now with al-Abadi. The fact is, the Iraqi Government 
betrayed us this week in entering into a special intelligence 
alliance with Iran, Assad, and Russia.
    The Train and Equip Program has been a failure. Due to 
political correctness, we have not armed those we know are not 
Islamic extremists; namely, the Yazidis and the Christians. And 
due to diplomatic correctness, we have not armed the Kurds 
directly, but try to put everything through Baghdad. That does 
not mean we should abandon the Train and Equip Program, which 
should have begun much earlier, as many on this committee 
argued, because what is the alternative? The chairman tells us 
we must defeat ISIS. Whose ground troops are going to do that, 
and what is a plan other than the administration's plan, poorly 
carried out in the case of the Train and Equip Program, that 
will allow us to achieve that goal without massive American 
casualties.
    I yield back.
    Mr. Poe. The gentleman's time has expired.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Perry, for 1 minute.
    Mr. Perry. Thank you, Mr. Chairman.
    In spite of its shortcomings, and there are many, the last 
administration's policy was not completely failed, and I would 
submit that the failure was after that President left, and with 
the advent of the new policy.
    To that effect, in his September 2014 address from the 
White House, President Obama laid out a plan to degrade and 
ultimately destroy ISIL through a comprehensive and sustained 
counterterrorism strategy. In Syria, this goal was to be 
achieved with two major policies; a systematic campaign of air 
strikes and increased support to forces fighting the Islamic 
State on the ground.
    A year later, what does this strategy currently look like? 
Eleven sorties per day yielding an average of 43 bombs dropped 
daily, a handful of Syrian rebels who would rather be fighting 
Assad at a cost of about $100 million to the American taxpayer.
    According to a report published recently by the Syrian 
Observatory for Human Rights, ISIS has extended its territorial 
reach and now controls 50 percent of Syria, including most of 
the country's oil wells which have proven to be a significant 
source of revenue.
    Mr. Chairman, I think it is high time this administration 
go back to the drawing board.
    I yield back.
    Mr. Poe. The gentleman yields back his time.
    The Chair recognizes the gentleman, Mr. Rohrabacher, for 1 
minute.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    This administration has managed to turn a bad situation, 
which it did inherit, which was a bad situation that we created 
on this side of the aisle by going along with the President who 
precipitously invaded Iraq at a time when he hadn't finished in 
Afghanistan, but that bad situation this administration 
inherited has been turned into a catastrophe of this 
administration's making.
    U.S. policies, even our supplies sent to defeat ISIL are 
now in the possession of radical Islamic groups that intend on 
killing Americans and other people who believe in our Western 
values. This administration has found every excuse to undermine 
the governments and the forces that are most friendly to our 
cause and the cause of peace.
    In Syria, we refused to cooperate with Russia 5 years ago 
claiming that there was an alternative, and what happened in 
those 5 years? It's turned into an ever-worse situation, and 
the money that was sent over to arm a Third Force we now find 
has been used to train and equip hostile forces to those people 
who are trying to bring peace to the Middle East.
    Thank you for holding this hearing; looking forward to 
getting the details.
    Mr. Poe. The gentleman yields back.
    The Chair will now recognize and introduce all three of our 
witnesses. Thank you, gentlemen, for being here.
    General Jack Keane is the chairman of the board at the 
Institute of the Study of War. General Keane is a retired four-
star general and the former vice-chief of staff for the United 
States Army.
    Mr. Thomas Joscelyn is a senior fellow at the Foundation 
for Defense of Democracies, and senior editor of The Long War 
Journal, a publication dealing with counterterrorism and 
related issues.
    And Ambassador Daniel Benjamin is director of the John 
Sloan Dickey Center for International Understanding at 
Dartmouth. Ambassador Benjamin previously served as Ambassador-
at-Large and coordinator for the counterterrorism at the United 
States State Department.
    Thank you, gentlemen, for being here. General Keane, we'll 
start with you.

STATEMENT OF GENERAL JACK KEANE, USA, RETIRED, CHAIRMAN OF THE 
             BOARD, INSTITUTE FOR THE STUDY OF WAR

    General Keane. Thank you, Chairman Poe, Ranking Member 
Keating, distinguished members of the committee for inviting me 
back today. I'm honored to be here with my distinguished panel 
colleagues.
    The Middle East has experienced one of the most tumultuous 
periods in its history with the old order challenged by the 
aspirational goals of the Arab Spring, Islamic terrorists 
taking advantage of this political and social upheaval, and 
Iran using proxies to achieve regional influence and control.
    ISIS has become the most successful terrorist organization 
in modern history by dominating a large swath of Syrian-Iraq 
territory while expanding its formal affiliations into seven 
countries, and developing a worldwide following.
    As you mentioned, Mr. Chairman, approximately a year ago, 
the President announced U.S. policy that in conjunction with 
our Coalition partners we would degrade, and ultimately defeat 
ISIS. While there has been some progress, looking at this 
strategy today, we now know the conceptual plan of Iraq first 
and minimal commitment in Syria is fundamentally flawed. The 
resources provided to support Iraq and Syria are far from 
adequate. The indigenous ground forces in Syria and Iraq are 
not capable of defeating ISIS. The air campaign rules of 
engagement are too restrictive. We have not impacted the 
ideology or ISIS recruiting as 28,000 new recruits have arrived 
this year alone. As such, we are not only failing, we are 
losing this war. I can say with certainty our strategy will not 
defeat ISIS.
    ISIS, who is headquartered in Syria, recruits, trains, and 
re-supplies in Syria. It is from Syria that ISIS has so 
successfully expanded, and it is from Syria that ISIS reaches 
out to 20,000 social media sites per day. They control large 
swaths of territory in Syria from Iraq border to Damascus. This 
territorial control is what differentiates it from other 
terrorist organizations, but it is also its greatest 
vulnerability.
    To defeat ISIS, we must take its territory away, as we did 
with Germany, Japan, and Korea; yet, we have no strategy to 
defeat ISIS in Syria. We have no effective ground force, which 
is a defeat mechanism. Air power will not defeat ISIS; it has 
not even been able to deny ISIS the ability to attack at will. 
ISIS grew to a terrorist army only because of the sanctuary in 
Syria. We cannot succeed in Iraq if ISIS is allowed to exist in 
Syria.
    The United States finds itself at a critical juncture with 
its ISIS strategy failing, the Syrian civil war in its fourth 
year, and because the Assad regime this last year has been 
losing ground to the rebels and some political support, 
Vladimir Putin is executing a military buildup in Syria to 
insure the survival of the Assad regime. Putin is also working 
to create an alternative anti-ISIS Coalition that includes 
Russia, Iran, Syria, and Iraq in a direct challenge to the 
U.S.-led Coalition.
    In view of these very real challenges, what can we do? As 
to the strategy, Sun Tzu said, ``Tactics without a strategy is 
the noise before defeat,'' and we have some noise.
    Once and for all, 22 years after the first World Trade 
Center bombing, 14 years after 9/11, we should develop in 
conjunction with our allies a comprehensive strategy to defeat 
radical Islam. Otherwise, we will continue to react to 
individual terrorist movements, al-Qaeda, ISIS, Ansar al-
Sharia, Boko Haram, you name it, with no end in sight.
    As to Syria, recognizing an effective ground force is the 
key to defeating ISIS with much less restrictive use of air 
power. The ground force should consist of the Syria Kurds, the 
only force who has enjoyed success against ISIS in Syria. This 
force should be armed as required, and provided special forces 
advisors to assist with the use of air power.
    Despite the dismal failure of the Train and Equip mission 
of the moderate Sunni Arab Force, I agree with Mr. Sherman, it 
is still essential to put together this vital capability. The 
parameters for this force must change. We cannot restrict the 
Sunni Syrian Arabs to exclusively fighting ISIS, when their 
priority is the Assad regime who is destroying their 
communities and killing their families. They want to fight the 
Assad regime and ISIS; let them.
    Also, this force and their communities must be protected as 
should the Syria Kurds. Begin by establishing free zones in the 
north and south, use Coalition air power to include the Turks 
to enforce it, and permit the people to use the free zone as a 
sanctuary. Advise Assad if he challenges the free zone, then 
U.S.-led Coalition will shut down his air power.
    We must step up the use of our special operations forces to 
conduct routine ground raids, not just limited to drone raids. 
But the harsh reality is that the Syrian Kurds and the Sunni 
Arabs may not be sufficient to dislodge ISIS and defeat them in 
Syria. And the task may ultimately require an outside Arab 
coalition assisted by the United States ground and air 
components.
    As to Assad, while the United States and the Coalition 
desires a political solution to the Syrian civil war, recognize 
that Assad will never depart unless the military momentum 
shifts against him. Despite Russia's military pressure, this 
should still be U.S. policy.
    As to Russia, once again, Putin is outmaneuvering the 
United States, and once again he will out-bluff us. Putin's 
economy is in the tank. His financial reserves are running out. 
His military is no match against the United States. He has 
deployed a relatively small military and limited capability to 
Syria; yet, he will likely get what he wants, the preservation 
of the Assad regime.
    The United States should not coordinate any military 
operations with Russia. To do so, we are de facto in collusion 
with the Syrian regime, Iran, the Quds Force, and Hezbollah. 
Putin is counting on President Obama's fear of escalation, and 
fear of confrontation to force U.S. capitulation to Russia's 
ambition in Syria, and the Middle East at large. This, in my 
view, is a game changer.
    There are no easy answers in Syria, but we don't have the 
luxury to say it's too hard, and it's too complicated. There 
have been plenty of mistakes and lost opportunities to be sure, 
but U.S. interests, U.S. security, and U.S. credibility is at 
stake. What is most needed now is U.S. determined leadership 
and resolve to commit to defeating ISIS along with a revised 
effective strategy.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Keane follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
                              ----------                              

    Mr. Poe. Thank you. Mr. Joscelyn.

STATEMENT OF MR. THOMAS JOSCELYN, SENIOR FELLOW, FOUNDATION FOR 
                     DEFENSE OF DEMOCRACIES

    Mr. Joscelyn. Chairman Poe, Ranking Member Keating, and 
other members of the committee, thank you for inviting me here 
today to speak about our counterterrorism efforts in Syria.
    As others have already said, the war is exceedingly 
complex. I'm not going to pretend to have all the answers for 
you, but I've heard a few things here already which are 
consistent with my testimony. I want to highlight them in my 
oral testimony.
    First is sort of the necessity of removing territory from 
the Islamic State or ISIS. The Kurds have done a good job this 
year taking the northern third of Raqqah Province away from the 
Islamic State, but as David Ignatius in the Washington Post 
recently reported, they've been basically under-resourced, and 
for some reason there's a holdup in getting more resources to 
take that fight to Islamic State. I don't know why that is; 
however, that seems to be the case.
    In that vein, I would say that the founding mythos of the 
Islamic State is that it is the resurrection of the Caliphate. 
They brought this back to being a reality on this earth. And I 
think that as long as that myth exists and lives, that 
basically we're going to keep seeing more recruitment, we're 
going to keep seeing more people flock to the Caliphate. Now, 
you're going to have some people who defect, and who aren't 
happy, and who go home, and we need to trumpet their messages. 
But as long as this founding myth that they are the Caliphate 
and control territory exists, they're going to keep going.
    And to that point, this morning the Treasury Department 
released what I think is really unprecedented; 35 terrorist 
designations at once this morning. Most of the designations 
deal with the Islamic State and underscore the degree to which 
the Islamic State has mushroomed. They deal with the Islamic 
State's provinces in the in the Khorasan and the Caucus 
Province, also the Islamic State's growing presence in the 
Sinai. And also, most importantly, deals with western recruits 
have gone to the Islamic State and posed some level of threat 
to their home countries.
    Now, the plots that have been, I think, highlighted in 
these designations aren't necessarily 9/11 style plots. These 
aren't these sort of spectacular events that we should all be 
worried about, but it shows that there is at least the seed of 
an idea of attacking their home countries there with some of 
the individuals who were designated this morning.
    One quick point to something Mr. Sherman said about Iran 
and Assad. I think even taking it a step further, I think that 
they actually are the fundamental destabilizing force in the 
region, and have actually fueled Sunni jihadism. Just last 
month, as we reported in The Long War Journal, the Islamic 
State brutally executed four members of the popular 
mobilization forces in Iraq. They did so in a manner that was 
consistent with the way the Shiite extremists had previously 
executed Sunnis who they were fighting. And too oftentimes in 
our media coverage, we get the ISIS video which is sort of, you 
know, glossy and highly stylized, and something that's really 
there for the wow factor, but not enough attention is given to 
what's happening on the Shiite side which is really driving 
this. And, unfortunately, as long as Shiite extremism is 
expanding, what that does is it forces Sunnis more into the 
radicals camps, more into the jihadist camps, and that's not a 
good thing. Obviously, that underscores the idea that in the 
long run, Assad and Iran are not an answer to this at all.
    One further threat stream that I want to highlight today, 
and this goes to a lot of what we work on. I think it's very 
poorly misunderstood, is the al-Nusra Front, and the Sunni 
jihadists in Syria who are not aligned with the Islamic State, 
and who are actually opposed to them. I think they're 
actually--there's a gross misunderstanding of what they're 
doing, because what you don't hear often is that they are 
actually building their own state in northern Syria, and 
particularly in the Idlib Province.
    The al-Nusra Front is openly loyal to Ayman al-Zawahiri, 
the head of al-Qaeda. It is seeded with senior al-Qaeda 
operatives, some of whom have actually trained, and lived, and 
worked with al-Qaeda going back to the 1980s. In a recent 
video, they highlighted the 9/11 attacks as something that's 
part of their legacy and their heritage, and say that this is 
part of--they're the heirs of this glory. And their videos and 
propaganda show very clearly that al-Qaeda actually seeks to 
build an Islamic State or Emirate as well in Syria. This is 
absolutely without a doubt.
    And, in fact, is you look at the Train and Equip Program, 
the recent problems with it, I think this is another fact that 
needs to be highlighted. The problems came not from ISIS, the 
problems came from al-Nusra Front or al-Qaeda, going back to 
July when members of Division 30 went into Syria into the 
Aleppo Province, it was al-Nusra that was waiting for them 
that, as you said, Chairman Poe, killed, and captured, and 
basically disbanded this group very quickly. We were not 
expecting that for some reason on the U.S. side.
    Now just recently we have now an admission from CENTCOM 
saying that, in fact, several vehicles and ammunition at a 
minimum were turned over to al-Nusra Front in northern Syria, 
not ISIS, as part of a deal that was brokered to basically 
guarantee safe passage for some of the people who were somehow 
affiliated with this program.
    I think this highlights to a certain extent that there's 
such a myopic focus on the Islamic State, and such a drive to 
say the Islamic State is really the only threat we have to be 
worried about here, that basically a lot of times what's 
actually happening with these other groups is just as 
important, if not more so in the long run.
    And finally I'll say this, there's been somewhat of a 
public relations campaign to get the West to support or at 
least tactically support some of the Sunni jihadists in Syria, 
including Ahrar al-Sham. That is a horrible idea. Members of 
the Obama administration have actually openly objected to that 
idea and said that's a no-go. They are right in that regard. 
Ahrar al-Sham should in no way be our partner in Syria. They 
cannot be. This is a group that openly says that the Mullah 
Omar's Taliban is a model for what they're building in Syria. 
It is deeply allied with al-Qaeda in Syria. It's had senior al-
Qaeda veterans implanted in its ranks, and seeded in its ranks. 
This is a group that is absolutely not worthy of our support, 
and so I will end on a final warning; which is that the Sunni 
jihadists who are not Islamic State, and are not affiliated, 
and are actually against Assad, a lot of these groups are not 
our allies.
    [The prepared statement of Mr. Joscelyn follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
      
      
                              ----------                              

    Mr. Poe. Thank you, Mr. Joscelyn.
    The Chair now recognizes Ambassador Benjamin.

STATEMENT OF THE HONORABLE DANIEL BENJAMIN, NORMAN E. MCCULLOCH 
   JR. DIRECTOR, JOHN SLOAN DICKEY CENTER FOR INTERNATIONAL 
   UNDERSTANDING, DARTMOUTH COLLEGE (FORMER COORDINATOR FOR 
          COUNTERTERRORISM, U.S. DEPARTMENT OF STATE)

    Ambassador Benjamin. Chairman Poe, members of the 
subcommittee--is that better? Begin again.
    Chairman Poe, Ranking Member Keating, distinguished members 
of the subcommittee, thank you for the opportunity to appear 
today to discuss the important issue of counterterrorism in 
Syria.
    Many have spoken of Syria as the problem from hell. Today 
with upwards of \1/4\ million dead, more than 4 million Syrians 
in exile, a crisis in Europe and in Syria's neighborhood, and 
almost 8 million internally displaced, one can only say that 
Syria has descended to a lower and darker circle of hell. And 
as many have mentioned, from an American perspective, the 
enduring safe haven that has been created in Syria and in Iraq 
is an outstanding problem for U.S. security.
    This hearing, moreover, comes at a moment of dangerous flux 
with the deployment of substantial numbers of Russian forces to 
Syria, and that appears to be a game changer for Western 
strategy. I think it's unlikely now that there will be any 
chance of removing Bashar al-Assad's regime, or of the regime 
being pressured to come to the negotiating table on terms that 
it finds inhospitable.
    And I believe that it's important to look at the regional 
context, as well. While a diplomatic solution will have to be 
found, and there is no military solution has been said over and 
over again, we face a potential another round of flux followed 
by equilibrium at a higher level of violence with Sunni powers 
in the region supporting their proxies to fight against Assad, 
now backed by the Russians. And that, in turn, could raise the 
stakes from a counterterrorism perspective, as well.
    It is a moment for innovative diplomacy, and I would just 
say that I share the view that we need to show more flexibility 
on the issue of the fate of the Assad government. And while, 
ultimately, a leader has committed the atrocities on the scale 
that Bashar al-Assad has, cannot be allowed to stay in power, 
humanitarian and counterterrorism concerns demand that we be 
flexible about the modalities of that departure.
    As others have noted, the key shortcoming in Syria and Iraq 
remains the absence of a capable ground force which is 
essential for achieving the kind of success against ISIL that 
we seek to achieve. Here there are two critical problems; what 
has been mentioned, the weak showing on Equip and Train needs 
no further discussion here. But, equally, I think it's 
important to understand again the regional context, which is 
that our Coalition partners are far from engaged in this 
struggle as seriously as we would like. While Western allies 
are showing growing commitment, and we should all welcome 
France's decision to launch air strikes against targets in 
Syria, the Saudis and the smaller Gulf States remain 
principally interested in the sectarian conflict and Exhibit A 
in that regard is the conflict of Yemen, where a humanitarian 
catastrophe is also unfolding. And Saudi Arabia's determination 
to extirpate the Houthis in Yemen is receiving far more 
attention and resources than the effort to roll back ISIL and 
Sunni extremism.
    Our and our allies' agendas are at odds, and that is going 
to be a continuing problem in this extraordinarily difficult 
situation. But that said, I still think that the strategy we 
have, while hardly ideal is the best one available to us. For 
all its grotesque violence, ISIL has not yet manifested itself 
as a first tier terrorist threat to the United States. It has 
not yet shown significant interest in out-of-area attacks. I 
believe that will change the more we bomb them, but for the 
time being, I don't think they can be said to be an al-Qaeda-
like threat. They have not devoted the effort to long distance 
covert operations the way al-Qaeda did.
    Much has been made about the threat of foreign fighters. I 
would point out that there's only been one case so far of a 
foreign fighter coming back to his home country and carrying 
out an attack. That was in Brussels. We see an awful lot of 
radicalization young individuals who want to be part of the 
team, want to show that they are part of this historic 
movement, but this kind of violence which remains low-level, 
and I would say non-existential, certainly, is the new normal 
in jihadist terrorism. It's not something to sniff at, but it 
is certainly less threatening than the catastrophic attacks we 
feared after 9/11.
    I agree with Mr. Joscelyn about the importance of the myth 
of the Caliphate and holding territory. That has galvanized 
lots of extremists, but I would suggest that we have a number 
of tools at our disposal. We are seeing an accelerating 
campaign of drone and other air strikes that are taking our 
senior officials of ISIL. And I believe that over time this 
will throw the group off balance and make it harder for them to 
achieve their military or their state-building objectives. And 
I think over time that will also make a ground campaign more 
attractive to some of our allies who we hope will get involved.
    I remain strongly opposed to putting U.S. boots on the 
ground. This would be repetition of the surge, and would only 
address symptoms and not the causes. I have a lot more to say, 
but I look forward to your questions.
    [The prepared statement of Ambassador Benjamin follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Poe. I thank the gentleman. I recognize myself for 5 
minutes for questions.
    Is it in our national security interest that ISIS be 
defeated? General?
    General Keane. Yes, absolutely, in my judgment. I mean, we 
are talking about--it is a national security interest for us 
for stability and security in the Middle East. It is in our 
national security interest dealing with our allies, obviously, 
who are being impacted by ISIS. And I also believe that ISIS 
left unattended will eventually become more of a direct threat 
to the American people at large, and I think the evidence is 
already there in terms of the fertility for something like to 
take place. Certainly, there is the intent.
    Mr. Poe. Ambassador Benjamin, did I hear you correct when--
did you say that Assad, he's going to stay in Syria? At some--
he'll be the leader, the President, whatever of a portion of 
Syria, or not?
    Ambassador Benjamin. Mr. Poe, first let me just say, I 
fully agree that over the long term we want ISIL to be 
defeated, but I think that the key here is strategic patience, 
and that we should do it in a way that comports with our long-
term interests, and doesn't result in another mistaken 
deployment.
    As for Assad----
    Mr. Poe. Strategic patience, does that mean that we'd let 
ISIS get a pass for a few years, and----
    Ambassador Benjamin. No, I think it means that we continue 
striking them and we've now carried out roughly 6,000 air 
strikes.
    Mr. Poe. Are you saying those air strikes have been 
successful in stopping ISIS?
    Ambassador Benjamin. I think that they have done a good job 
at containing ISIS. And I think that containment, 
unfortunately, is the solution of the moment.
    Mr. Poe. Do you agree with that, General Keane?
    General Keane. No. Absolutely, that's not true. What has 
happened, CENTCOM has chosen to use activity-based analysis to 
provide some impact of what ISIS is doing. Therefore, we 
receive information that says number of air attacks, number of 
vehicles destroyed, and we haven't been counting bodies since 
Vietnam, number of people killed. How we come to that 
conclusion is beyond me.
    What we're not doing in terms of the analysis that you're 
not receiving, but it is inside the CENTCOM headquarters is a 
matrix-based analysis that looks at the enemy and says how 
effective is their command and control? What is their tactical 
and operational initiative? What is their territorial control? 
Has it gone up, gone down, where is it now? What is their 
capability to regenerate forces? What degree of resiliency that 
they have? All of those things I just mentioned, plus four or 
five others, are all to the plus, which tells you that the air 
campaign is not nearly as effective as it could be, and it 
certainly is not having any significant impact on those 
categories, which is the way we judge an enemy force.
    Mr. Poe. Ambassador Benjamin, without going into that issue 
more, I mean, I think the General is right, and you're wrong. 
This is not defeating ISIS. I would think they would applaud 
the same type of lack of strategy because they're expanding. 
But answer my question; is Assad here to stay in Syria, or a 
portion of Syria, now that the Russians are involved? Is that 
what you said? I'm just asking that question.
    Ambassador Benjamin. What I said, sir, was that over the 
long term Assad needs to go. That, I believe, is consistent 
with our values and the revulsion of the international 
community, but that we should think hard about how we sequence 
that, and whether or not we agree to let him, for example, 
remain throughout his elected term in order to deal with the 
fact that the Russians are simply not going to leave ahead of 
time.
    I also would point out, sir, that otherwise, we are right 
now in a conflict in which we're fighting both sides from a 
middle that doesn't exist.
    Mr. Poe. More than one side. Reclaiming my time.
    Now that the Russians are involved, Putin, Napoleon of 
Siberia now moving into the area. You've got Russia, Assad, 
Iran now working together. How does that issue impact our 
strategy, lack of strategy, or a future strategy in defeating 
ISIS? General, you want to try that?
    General Keane. Certainly. Well, first of all, it is a 
reality, but we should not let Putin and his limited military 
capability that he's providing take us off what our strategy 
is, which is to defeat ISIS and put together an effective 
ground force in Syria to do that, and also do the same thing in 
Iraq, and provide the number of resources that we need to do 
that.
    I would tell Mr. Putin that I'm going to fly my airplanes 
where I want, when I want, I'm going to do what I want with 
them, and you're not going to interfere with them period. I 
mean, the idea of deconflicting operations with Putin is 
ridiculous. There's no reason to do something like that. We 
have to stand up for what our goals are in that country, in 
Syria, and also in Iraq. Putin is playing a card here, and he's 
gotten away with it in 2013 on the chemical weapons, he got 
away with it in Crimea, and he got away with it in Ukraine. And 
given that encouragement that we've provided him, he's playing 
another one.
    I do agree with this, Mr. Chairman, it does solidify what 
was happening to the Assad regime. They were losing Alawites, 
erosion of support not to the point where he was going to 
removed, but it was eroding, and the rebels were gaining on 
him, particularly in Idlib Province, and that was Jabhat al-
Nusra. And he knew that, and that sanctuary that they have, 
that Alawite sanctuary was being threatened. The Iranians 
provided him the detailed information on that because their 
intelligence is better, and that's what this move is about, to 
solidify the Assad regime. And that will happen to a certain 
degree, but if we continue the momentum against the Assad 
regime and support that, and support issues against ISIS, I 
believe at some point we'll be able to work a deal to get Assad 
out of there.
    Mr. Poe. Thank you, General.
    I yield to the ranking member, Mr. Keating from 
Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    I want to touch on one issue, and maybe get back to some of 
the other issues we were discussing. I'll start with Ambassador 
Benjamin. What's the role of Turkey, Turkey as an effective 
partner? Within hours after the U.S. had an agreement with 
Turkish officials to use the air force bases to launch air 
strikes against ISIL, Turkey launched air strikes against PKK 
in northern Iraq, the Syrian Kurdish group. And the YPG has 
close ties to PKK, and is one of the most effective anti-ISIL 
forces in Syria. Plus, although they're improving, I think 
Turkey has also been one of the most--probably the most main 
transit site for a country where fighters are flowing into 
Syria now. What could we do to better work with Turkey? I think 
it's critical that they become an effective partner for us.
    Ambassador Benjamin. Well, it's critical that they become 
an effective partner for us, but I would say the diplomacy with 
Turkey is an extraordinarily vexed problem, Mr. Keating. And 
Turkey has made clear that its number one priority is the 
removal of Assad. And complicating that is that President 
Erdogan has decided to essentially tack back against one of his 
greatest achievement, which was ameliorating tensions between 
Turks and Kurds in his own country by striking out against 
Kurds for political gain. And while we do benefit from being 
able to fly out of Incirlik now, we have an enormously 
challenging problem because the Turks are dead set against 
increased influence for the YPG, or any other Kurdish group 
outside of Turkey. So, the diplomacy there is extraordinarily 
difficult. And, again, the Turks are increasingly concerned 
about ISIL, but they are nowhere nearly as concerned about ISIL 
as they are about Assad, which has become an obsession. His 
removal has become an obsession for Mr. Erdogan.
    Mr. Keating. I couldn't agree--I was in Turkey just 4 
months ago, and I agree with you that--in their hierarchy of 
their concerns, Assad is first, the Kurds second, and ISIL may 
be third maybe, so that creates a problem that I see. I don't 
know if any of the other witnesses want to see how we could 
better deal with Turkey, if that's possible at all.
    Mr. Joscelyn. I'll echo Mr. Benjamin's honorable remarks 
here about dealing with Turkey because I think diplomacy is 
very difficult to deal with them.
    I'll say this, Turkey--in my opening remarks I highlighted 
Ahrar al-Sham as a group that's not our partner in Syria. 
They're a member of the Jaysh al-Fatah Coalition which is led 
by al-Nusra Front, which is al-Qaeda. Ahrar al-Sham fights hand 
and glove with al-Qaeda, al-Nusra Front throughout all of 
Syria. Ahrar al-Sham also happens to be Turkey's preferred 
proxy in the fight in Syria, and this is a group we profiled. 
I've probably written 100 articles on them about now in The 
Long War Journal, and there's no doubt about what Ahrar al-Sham 
is. This is a Sunni jihadist group that's aligned with al-
Qaeda. It's being set up to be basically the long run Taliban 
in Syria. Basically, the al-Qaeda, at least pre-9/11, you think 
about having these local Syrian forces that could basically be 
a face for Sunni jihadism in Syria. That's Ahrar al-Sham is, 
and Turkey is the number one backer at this point of Ahrar al-
Sham.
    General Keane. The only thing I would add is, listen, all 
the problems that Turkey has given us to be sure but, 
nonetheless, in mid-July they came to an agreement with the 
United States to establish, for want of another term, a free 
zone with us, and to enforce that free zone using air power. 
So, that is a beginning and a recognition that that will 
provide some relief in terms of sanctuary relief for people who 
need that measure of protection. And, of course, that serves 
their self-interest in terms of migration across their border 
with refugees, but it's also a way of protecting a ground 
force. And I think that's a positive thing, it's something we 
can work with.
    Mr. Keating. General, I appreciate your going forward with 
direct comments, but the difficulty I have trying to find out 
how to follow-through deals with the use of ground troops, as 
well. And you say that we have to have U.S. and our allies 
engaged in those ground troops to be successful. Two things; 
number one, how do we get our allies? The conversations I've 
had are not encouraging with our Western allies participating. 
Number two, let's assume we did, let's assume we were 
successful. What do you see for the time frame of those ground 
troops having to hold that territory?
    General Keane. The issue we have, and you mentioned in a 
discussion with the panel, is every one of our allies on the 
border there, their number one issue is Assad. And it's not 
that ISIS isn't important to them, but they want the focus to 
be the removal of that regime and what it's been largely doing 
to Sunnis, whose constituency is within their own countries. 
And that's why I thought the more aggressive strategy in 
dealing with Assad early on going back a few years, this is one 
of the lost opportunities we had to build a capable force that 
pretty much has gone by the wayside in a sense, because if you 
remember, a national security team from this administration 
offered that as an opportunity in the summer of 2012. We should 
never lose that focus, because I don't think they will 
participate as a ground force, an Arab Coalition ground force 
as long as that regime is there. But when you talk to them, 
once the removal of that regime, then they're willing to 
entertain the thought of taking some kind of ground action 
against ISIS, if it's still warranted at that time.
    And I suspect, even though we should try some of these 
other options, and I think the administration is looking at 
some different options, I'm not certain those options are going 
to be successful.
    Mr. Keating. Thank you, Mr. Chairman.
    Ambassador Benjamin was going to comment on this. I hope he 
has the opportunity to do that with other questions.
    I yield back.
    Mr. Poe. The Chair recognizes the gentleman from 
Pennsylvania, Mr. Perry.
    Mr. Perry. Thanks, Mr. Chairman.
    Mr. Joscelyn, what were the factors that led to the 
complete failure of the original batch of U.S.-trained Syrian 
fighters that crossed into the country from Syria in July, if 
you know, from your perspective?
    Mr. Joscelyn. What happened, and we were watching this, 
ironically enough, on social media. Al-Qaeda, al-Nusra Front 
has all sorts of social media accounts, and they basically were 
taunting us as this was ongoing releasing a statement saying 
that they had basically captured or killed a number of the 
Division 30 forces they're called as they crossed into Aleppo 
in northern Syria.
    The problem here was that it wasn't thought based on press 
reporting that, in fact, al-Qaeda in Syria was going to 
interfere with an American-backed effort, which I think was 
shortsighted. I don't know who made that call, or who made that 
choice, but that's what it said in the press reporting. So, it 
wasn't ISIS that interfered with us, it was al-Nusra Front or 
al-Qaeda that did. And then quickly what they did was after 
basically intercepting these guys as they were sent into Syria, 
they then went and raided their headquarters north of Aleppo, 
which we then--the U.S. then sent in air cover to try and kill 
them, and actually probably killed dozens of al-Qaeda fighters 
during the conflict. But the end result was that these 54 
fighters that went into Syria were quickly disbanded.
    Mr. Perry. I mean, 54 is a pretty--what was the force 
opposed to them when they came in? Do you have any idea? I 
mean, 54, I'm just----
    Mr. Joscelyn. It's a drop in the bucket. I mean, the point 
is----
    Mr. Perry. You've got a platoon of fighters.
    Mr. Joscelyn. I mean, Nusra Front by comparison, and this 
wasn't even factored in the strategy, easily has thousands upon 
thousands of jihadists now if you just look at their operations 
on a day to day basis. And they're not even ISIS. And then you 
go deal with ISIS and all the other factors there.
    Mr. Perry. General Keane, in what ways do you believe the 
recent Iran nuclear deal with affect counterterrorism efforts 
in Syria? I know that's maybe a little bit of a stretch, but 
can you draw a thread for us and put some points on it that we 
can maybe see some milestones, if you can come up--if you can 
think of some?
    General Keane. Well, I think it's pretty self-evident. I 
mean, the progress that the Iranians have made in the last 35 
years using proxy clients to sponsor terrorism for them, and 
also to execute military operations for them have led to 
significant influence and control in Lebanon, Syria, Yemen, and 
Iraq. And with close to $150 billion worth of funding that's 
going to be returned to their coffers, which is a significant 
percentage of their GDP, I think if we just estimate that 
likely 20-30 percent go to domestic needs to appease a 
population and keep them out of the streets, and most of it 
will go to their number one strategic objective, is not a 
nuclear weapon. Their number one strategic objective is to 
dominate and control the region, and that is where that money 
will go. And that will mean Hezbollah funding, it'll certainly 
means Quds Force funding, both of who are on the ground in 
Syria.
    And I may say, making a significant contribution also on 
the ground in Syria but no longer there, but helped prop up the 
Assad regime before ISIS invaded Iraq was thousands of Iraqi 
Shia militia that were all trained by the Iranians. So, that 
will be the mainstay of where most of the money will go. It 
will not just impact Syria, it'll impact other countries in the 
region. But, certainly, it will have impact on Syria.
    Mr. Perry. Keeping with that kind of a thought, the 
implications of Russian forces in Syria, and especially in 
light of the Assad regime's recent use of Russian warplanes to 
carry out air strikes. You kind of talked about this briefly 
before.
    Do you believe the U.S. can still--do we have the resolve? 
What are the implications, what are the challenges to us 
instituting a no-fly zone should we chose to with the advent of 
Russian forces proper being in country?
    General Keane. Well, I think the free zone also would 
obviously be a no-fly zone. We would not tolerate the Assad 
regime bombing a free zone, so I think it's a--the no-fly zone 
has a little bit of a third rail to this administration, so I 
think a free zone is a better word. And, also, it's a place 
where refugees can go to seek sanctuary.
    But look, what----
    Mr. Perry. Are we going to be mixing it up with Russian 
planes? Are American fighter pilots going to be mixing it up 
with----
    General Keane. I don't see any reason why the Russians 
would do something like that. They've got some intercept 
airplanes, they're called SU-24s. They've got some multi-roll 
fighters on the ground, and they've got some close air support 
airplanes. They have about a squadron of fighters, they've got 
about a squadron of Hinds and Hips, and they've got a half a 
dozen drones. That's a limited air capability. They've got some 
ground forces and some tanks, about a battalion size to sort of 
protect the airbase and the greater airbase--and a base they're 
forming north of that. That's not a power projective offensive 
ground force. You push it out so you don't have Jabhat al-Nusra 
lobbing mortars at their airbase and interfering with their 
operations.
    It is a limited military capability designed to have 
significant political impact. And I believe it will have 
significant political impact. He knows what he's doing.
    Mr. Perry. Thank you, General. Thank you, Mr. Chairman.
    Mr. Poe. The Chair recognizes the gentleman from 
California.
    Mr. Sherman. Thank you, Mr. Chairman.
    At the beginning, I said that the Shiite Alliance was more 
dangerous, more evil, has killed more innocent Muslims, killed 
more Americans than ISIS has. What I should point out, what I 
failed to point out at the beginning of this, but ISIS is far 
more gruesome. Assad will give 1,000 people with barrel bombs 
and have the good taste to deny it. ISIS will behead a dozen 
people and put it up on YouTube.
    There have been those who have blamed the United States for 
everything and said we've accomplished nothing. I would point 
out for the record that ISIS was on its way to take Baghdad, at 
least the Sunni neighborhoods in Baghdad, and it was American 
air power that stopped them. Speaking of Baghdad, this is an 
ally that may not be worthy of very much American support.
    Ambassador, do you know how much money we spent propping up 
that regime this year? We've got thousands of troops there, we 
give them lots of free weapons. Any idea what the price is?
    Ambassador Benjamin. I'm afraid I couldn't give----
    Mr. Sherman. Okay. We'll try to find out for the record, 
but this is a regime that has oil revenues present and future 
that will not commit to repay us with future oil revenues. It's 
a regime that sends money to ISIS, it pays the civil servants 
in Mosul, which means they're giving money to people under ISIS 
control, it I believe gives Mosul free electricity for which 
ISIS can collect. But, most importantly, ISIS seized all those 
bank notes. The Iraqi regime will not recall them as many 
countries do and issue new currency. And, of course, the reason 
for that is that really makes it tough to be a corrupt 
politician because you have your store of money in the old bank 
notes.
    We're losing the cyber war. The number one thing ISIS has 
is it does control territory, but the second thing is that our 
message in cyber space is terrible. One of the reasons for that 
is that we don't have anybody on our team who's paid to 
understand Islam. We think that if we can just prove that al-
Baghdadi beheaded innocent girls, that that will undercut his 
support. It may increase his support. He may put that up on 
YouTube. What we fail to realize is if we can catch him eating 
a ham sandwich, that's what will undercut his support.
    Ambassador, while you were in government, if you wanted to 
call a U.S. Government employee who's full-time job was to be a 
true expert in Sharia, in the Quran, in the Hadith, was there 
anybody who was a U.S. Government employee you could call on 
who had memorized the Quran, which is kind of a basic level of 
Islamic scholarship?
    Ambassador Benjamin. Yes, sir, I'm sure there are many----
    Mr. Sherman. Did you ever call on one? Can you name one, 
because I've been told again and again that the State 
Department refuses to hire anyone for their knowledge of Islam. 
Now, for all I know, our Ambassador to Paraguay is a devote 
Muslim, but he's focused on Paraguay. Who would you call? What 
office?
    Ambassador Benjamin. So, if I wanted an intelligence 
briefing, I'd call the intelligence----
    Mr. Sherman. Is there anybody in the Intelligence Service?
    Ambassador Benjamin. There are many, many, many people.
    Mr. Sherman. Who are true graduates of the top Islamic 
scholarship schools?
    Ambassador Benjamin. No, but there are many other ways of 
acquiring that kind of knowledge.
    Mr. Sherman. Well, there's many other ways--look, we hire 
thousands of lawyers at the State Department. We've got people 
on salary because they understand European diplomatic law of 
the 1800s. We don't have anybody who's memorized the Quran.
    Ambassador Benjamin. That's just not true, sir.
    Mr. Sherman. That's not true? Well, I've--can you name 
anybody who has?
    Ambassador Benjamin. I'm sure that that's the standard.
    Mr. Sherman. Okay. How about the standard of being able to 
apply both Sunni and Shiite Hadith to the behavior of 
individual actors?
    Ambassador Benjamin. We have many people who can----
    Mr. Sherman. We have many people, but you can't name one.
    Ambassador Benjamin. I'm not----
    Mr. Sherman. In other testimony from the State Department, 
they've said they refuse to hire anybody to do that. But when 
you say intel, that means they're not involved in public 
diplomacy.
    Ambassador Benjamin. We also have people in the 
intelligence part of----
    Mr. Sherman. Okay. So, you're saying the intel community 
advises our public diplomacy and our cyber communications 
efforts?
    Ambassador Benjamin. Absolutely.
    Mr. Sherman. That's an interesting role for intel to be 
doing on a day to day basis. I have yet to find a single 
communication from the State Department showing the hypocrisy 
and the failure to follow Islamic law of our enemies in the 
Middle East, nor can you name a single person that has this. 
But you're sure they're there.
    Ambassador Benjamin. But I can show you 100 different 
pieces put out by the Center for Counterterrorism Strategic 
Communications that have done exactly that.
    Mr. Sherman. Yes, and none of them by somebody who could--
who would be mid-level at any of the top Islamic schools in the 
world. Yes, they've listened to the great course's summary of 
the Islamic religion.
    Ambassador Benjamin. That's an absolutely unacceptable slur 
on some truly remarkable scholars----
    Mr. Sherman. I asked you what post in the State Department 
is hired for their knowledge?
    Ambassador Benjamin. I&R.
    Mr. Sherman. IR?
    Ambassador Benjamin. I&R, Intelligence and Research.
    Mr. Sherman. Intelligence and----
    Ambassador Benjamin. Also, NEA has expert----
    Mr. Sherman. Okay. I've called over there many times and 
they've told me nobody, and you're telling me there's somebody, 
but you can't name them. And you know that they're only going 
to hire people with fancy degrees from Princeton, not 
scholarship from the major Islamic universities. But maybe 
there's some other reason why our cyber efforts are so 
pitifully poor when it comes to confronting ISIS.
    Ambassador Benjamin. A major reason why our cyber efforts 
are inadequate, sir, is that Congress has never funded them at 
an adequate level.
    Mr. Sherman. We funded them far more than ISIS is funded, 
and it's not like they've accomplished 10 percent of what they 
should have. It's not like you come to us with a success story 
and say we can do 10 more. We have the largest public diplomacy 
effort in the world, and the greatest failure in the world. And 
we are losing to people who behead children. We should be able 
to do a better job.
    Ambassador Benjamin. Well, so this is a much longer 
conversation, sir, but the fact is that they have right now a 
story that is very attractive to disaffected Muslims in many 
countries around the world, and we don't. And that's a real 
problem. What would you propose that that message be? Come to 
the United States where you can't get a visa? What exactly 
should the message be to people who find that to be a really 
attractive possibility----
    Mr. Sherman. Well, first and foremost would be a review of 
Islamic scriptures to demonstrate how what ISIS is doing is 
violative of them.
    Ambassador Benjamin. Sir, the government----
    Mr. Sherman. Giving visa to the----
    Ambassador Benjamin [continuing]. Has done this over and 
over again and found out that when the U.S. tells Muslims what 
is Islamic and what is not, we fail.
    Mr. Sherman. We don't have to do the telling. We can be 
beseeching those who can issue the fatwas, but we don't have 
the background.
    Ambassador Benjamin. Do that, too.
    Mr. Poe. The gentleman's time has expired.
    The Chair recognizes the other gentleman from California, 
Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you. With all due respect to my 
colleague from California, who we agree with most of the time, 
I would have to say that certainly the cooperation between our 
intelligence services and public diplomacy are not only strong, 
but expected to be strong. That's part of their job, and I know 
they work with various people. I spent 7 years in the Reagan 
White House, and I don't think that they're any different now 
than they were then. There was a wide range of cooperation 
there with the intelligence community. So, whether or not they 
come up with the right policies or decisions, is something else 
again.
    Anyway, I could go into great detail for you, but I was a 
speech writer for President Reagan, and I can tell you that 
there was a great deal of resources available on how people 
think in that part of the world, and what will appeal to them, 
et cetera, at least during the Reagan administration. I don't 
know, maybe they don't do that any more.
    Mr. Sherman. If the gentleman will yield.
    Mr. Rohrabacher. Sure.
    Mr. Sherman. I've called over there seeking information 
from people who would qualify as Islamic scholars and they've 
said, ``We don't hire any of those.''
    Mr. Rohrabacher. Maybe that's what they tell a Congressman, 
you know. Maybe they've got their----
    Mr. Sherman. Well, they're really doing a bad job, or 
they're lying to Congress, and I'll leave it to our witness to 
tell us which it is.
    I yield back.
    Mr. Rohrabacher. Okay. Well, thank you very much.
    I'm concerned about a couple of things. One of the things 
I'm most concerned about is that we end up using our own money, 
and our own tax dollars that have been used in the name of 
fighting this horrible threat of radical Islamic terrorism. Of 
course, we have a President, I might add, who I don't seem to 
remember having been able to usher those words, or utter those 
words, radical Islamic terrorist, but I'm afraid that the money 
that we've been spending, that much of it has gone and ended up 
in the hands of the people who are radical Islamic terrorists.
    This Third Force that the administration insisted that we 
support in Syria rather than going with Assad, which is what 
the Russians were proposing, I understand that that Third Force 
now is proven that it's actually now working with ISIL, and 
that some of their commanders who have been on the payroll up 
until 2013 are now engaged in activity with these terrorists. 
Is that correct? General, do you know, do you guys know 
anything about that?
    General Keane. I have no knowledge of that.
    Mr. Rohrabacher. Well, the Third Force just--yes, sir, go 
ahead.
    Mr. Joscelyn. The most recent reports are actually that 
someone in the New Syrian Force, a commander who may or may not 
have been vetted to be trained, it's not clear to me based on 
what CENTCOM is saying. CENTCOM's storyline over the last week 
has evolved, but that a commander from this force may or may 
not have defected to al-Nusra Front, which is al-Qaeda in 
Syria.
    Mr. Rohrabacher. Right.
    Mr. Joscelyn. Certainly, whether or not he was vetted or 
not to provide--be directly involved in the program, he 
certainly provided, according to CENTCOM, equipment and 
ammunition to al-Nusra Front, which is al-Qaeda, which is U.S.-
supplied equipment and supplies directly to al-Qaeda.
    Mr. Rohrabacher. Right. Well, so there's ample evidence 
that this has been going on. Maybe we haven't proven the case 
yet, but I will just say that it--I think the idea that we 
should just create a Third Force on our own and go out there 
and support it with people that we don't know, basically, 
because we're creating a new force, I think has been a 
catastrophe for the stability of the Middle East.
    And let me ask about that. Again, why is it that you have 
Assad--I mean, during World War II, we sided with Hitler as I 
might say Putin acknowledged the other day at a speech. He 
said, ``Hey, you worked with us to defeat Hitler. We walked 
away from being the Soviet Union, and yet you still won't work 
with us even in the Middle East against these radicals.'' Why 
is that Assad being a bad guy, but knowing that he doesn't 
intend to kill Americans, why aren't we helping, going along 
with the idea of going over there and helping the bad guy who 
wants to kill people who want to murder Americans? That makes 
all the sense in the world to me. Maybe we should have worked 
with Putin and it would have been better off. If you want to 
refute that, go right ahead.
    Ambassador Benjamin. Mr. Rohrabacher, I would make a few 
arguments. First, we faced an existential struggle in World War 
II that I think made collaborating with Stalin's Russia, an 
entirely different proposition from collaborating with a mass 
killer like Hafez al-Assad. I don't think that our vital 
interests are in any way engaged in the region in the way that 
we experienced----
    Mr. Rohrabacher. You're saying Assad is worse than Stalin.
    Ambassador Benjamin. World War II. No, I'm not saying--I'm 
saying it's a different situation and, therefore, we should 
employ different standards. But I think the other thing that's 
been lost sight of here is that were we to side with Assad, or 
were we to put a ground force into Syria to combat ISIL, we 
would quickly find ourselves without an awful lot of our allies 
in the Sunni Arab world, allies who we have long and historic 
relationships with, and who we have many differences with right 
now, but who we still do not want to fully alienate. And I 
would count among them Saudi Arabia, the UAE, Bahrain, Qatar, 
and Kuwait.
    Mr. Rohrabacher. Sure, so all of these countries like the 
Saudis who actually paid for the pilots to fly planes into our 
buildings on 9/11, we're worried about what the Saudis have to 
tell us. And I will tell you one thing. At least you know these 
ISIL people are right up front that they want to murder us. We 
put up with Pakistan, we put up with Saudi Arabia, and I think 
we are providing or giving ourselves some sort of delusion 
about what the real world is all about. And I don't know what 
we've done to punish Saudis about what they did to help on 9/
11, but radical Islam is our enemy, and the Saudis have 
financed it, and some of the very same people you're talking 
about have been financing ISIL. Have they not? Some of the same 
governments you just mentioned have financed ISIL. Isn't that 
correct?
    Ambassador Benjamin. No, I don't believe there's any 
evidence that any of those governments have financed ISIL. I 
think that there have been cases in which some of them have 
financed other groups that we would consider too extremist for 
our support----
    Mr. Rohrabacher. Who then became ISIL.
    Ambassador Benjamin. What?
    Mr. Rohrabacher. Who then became ISIL. Anyway, it's a very 
complicated--this is a complicated world. It's not something 
that can be just done with slogans. I understand that, and we 
need all the guidance we can get, and all the information. The 
General and I had a good talk out in the ante room beforehand 
about his various ways of analyzing a situation, which I found 
to be very helpful, and thank you. I had to go into the 
backroom with--we had a meeting with the Japanese, a Japanese 
delegation I had to meet with. I will read your testimony and 
look at it. Thank you for your advice today. And thank you, Mr. 
Chairman.
    Mr. Poe. I thank the gentleman.
    The Chair will recognize a member not of this committee, 
but certainly welcome to ask questions, Ms. Sheila Jackson Lee 
from Texas, for 5 minutes.
    Ms. Jackson Lee. Thank you, Mr. Chairman, very much, and to 
the ranking member. And let me thank you very much for 
convening a very important hearing. As a member of the Homeland 
Security Committee and Judiciary, and a former member of this 
committee, I've dealt with these issues quite frequently. So, 
I'm just going to raise questions based upon my following of 
this, and I raise these questions with Mr. Benjamin. And I know 
it's difficult to maybe give a precise answer, but let me try 
to probe that.
    Let me just take something from speculation and news 
articles that the driving of the Syrian refugees, tragic. No 
one will forget the 3-year-old, the picture of that will remain 
stained in our hearts and our minds. Do you think there was a 
strategy to drive those refugees at the time that they were 
into Europe, which was not prepared even though the generosity 
of Germany was noted, to destabilize their resettlement 
program? I'm just going to start there, work my way back to 
Syria. Do you have any sense of how those refugees, the large 
numbers that they were, were coming into Europe at that time?
    Ambassador Benjamin. No, I'm afraid I don't. I can't say 
exactly what the trigger was. There were a number of things 
that happened on the ground in Syria that I think convinced 
Syrians that the situation was only going to get more dire. I 
don't think that there was anything that was done intentionally 
to disrupt European affairs; although, I do think that some of 
the central and eastern European countries that were 
waystations for the refugees saw it in their interest to hustle 
them out of the country toward Austria and Germany as fast as 
they could.
    Ms. Jackson Lee. My concern, and I'll go now back to Syria. 
One, 2 years ago, many of us were supporting the Syrian 
American community, and still do in terms of if we were back 
one or 2 years ago about supporting that military that was the 
Syrian, I believe, military component that was against Assad, 
to provide them with the support systems that they needed. And, 
obviously, it didn't come full circle for that to occur. We now 
find ourselves with the vacant space or the vacuum in which 
ISIS/ISIL has been able to take up residence, take up violence, 
establish a Caliphate, and to destroy any source of life that 
we possibly could have.
    Do you have a position on what I think the President has 
offered, is that Assad must go, but there is room for his 
leaving to be tempered, or to be, if you will, established 
through a process. Do you see any good intentions in Russia's 
effort to maintain that Assad must stay? And, of course, now 
not only is there a Caliphate, but Russia now has seemingly an 
open door in Syria. It certainly has assets that it wants to 
protect, resources it wants to protect. And how do you see that 
playing out? Is Russia going to be an effective partner? Is 
Russia's dominance of Syria going to be a detriment to trying 
to get it stabilized for the good people of Syria that I met 
when I was in Damascus and spent time there who want to come 
back and reclaim their country?
    Ambassador Benjamin. Well, you've asked a number of very 
good questions, and some of them are hard to answer. I think 
the short story here is that we do not know the full scope of 
President Putin's designs in Syria. He has talked about putting 
together a coalition to fight ISIL. And I think that there are 
intense conversations going on as there were yesterday at the 
U.N. between the President and Putin on exactly this issue.
    I think that it is important to underscore that Russia has 
long looked at Syria as one of its very small numbers of true, 
reliable allies. And that has been true for many decades at 
this point, so it's not entirely surprising that Russia decided 
to take this step to support this one very reliable ally.
    And I think that the President or the administration, I 
should say, is making a number of noises suggesting that there 
may be more room for discussing the long game in terms of 
Assad, but I think it's quite clear that Russia is not going to 
throw him overboard any time soon. And we don't have a lot of 
leverage there to effect that. So, that is why I said in my 
statement earlier, that I think that, ultimately, because of 
the crimes he's committed, Assad will need to go. But I think 
that there's a lot more flexibility in thinking about how that 
might happen now in Washington and around the world.
    Ms. Jackson Lee. The General looks like he wants to answer.
    General Keane. May I respond to that?
    Ms. Jackson Lee. General.
    General Keane. That's a very interesting question.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    General Keane. First of all, the reason why the Russians 
came is because Assad for this last year has been losing 
territory, particularly northern territory, and particularly in 
Idlib Province, mainly due to Jabhat al-Nusra. And, also, he's 
begun to erode his political base in terms of the Alawites 
possibly thinking about somebody else. So, a 60-year 
relationship with Russia, former Soviet Union, over 100,000 
Russians before the civil war began actually lived in that 
belt, that Alawite belt; a base on the Mediterranean, the only 
base that he has outside of Russia itself, he cannot in his own 
self-interest lose the strategic interest he has in Syria. It 
is his foothold in the Middle East, so here he comes, and he's 
going to prop up this regime. That is the main reason he's 
there, he's creating a bit of another narrative. It's about 
ISIS, it's about propping up the regime.
    And here's where I agree totally with President Obama in 
his U.N. speech, because what that does then, what Putin is 
saying is I am reinforcing the status quo inside Syria, and 
that means the humanitarian catastrophe that we have been 
watching for 4 years will continue because Putin is going to 
subsidize that regime and make certain it doesn't fall. And, 
remember, Assad has been making war on his people for these 4 
years. It's not just barrel bombing, it's systematic genocide, 
starvation in towns and neighborhoods, destroying every food 
factory that they can destroy, bread factories, canned food 
factories, et cetera, 62 percent of all hospitals he's 
destroyed because that's another way of killing people, if they 
can't be treated, 70 percent of all ambulances, and now the use 
of chlorine gas. It's a very methodical systematic way he's 
using to kill his population.
    This is what Putin is underwriting, and this is the status 
quo that that President spoke about when he said, ``The carnage 
will continue.'' That, I believe, will happen, sad as that is.
    Ms. Jackson Lee. Thank you both.
    Mr. Poe. The Chair thanks the witnesses and the 
gentlewoman; the Chair thanks the members, as well.
    At this point, this subcommittee hearing is adjourned.
    [Whereupon, at 3:27 p.m., the subcommittee was adjourned.]

                                 
                                    

                            A P P E N D I X

                              ----------                              


         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
         
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
